IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

No.

JOSHUA N. WRIGHT
PETITIONER,
VS
UNITED STATES OF AMERICA,

RESPONDENT.

PROOF OF SERVICE

COMMONWEALTH OF VIRGINIA :

CITY OF ALEXANDRIA

ALAN H. YAMAMOTO, being first duly sworn, deposes and says:

That on the 30'" day of November 2020, I mailed by first-class mail, postage prepaid, an
original and ten copies of the petition for writ of certiorari in the above-captioned case properly

addressed to the Clerk of the Supreme Court of the United States and within the time allowed for

filing said petition for writ of certiorari;

That on the above date, a copy of the petition for writ of certiorari and accompanying
documents were submitted through the Supreme Court’s electronic filing system;

That I mailed by first class postage prepaid an additional copy of the petition and the

statement of proof of mailing of the petition to counsel for respondent:

11
Solicitor General of the United States,
Department of Justice,
Washington, D.C. 20530.

I certify under penalty of perjury that the foregoing is true and correct. Executed on this 30"

day of November 2020.

Qe oO

Alan H. Yamar fo} O

Subscribed and Sworn to before me this 30" day of November 2020.

Notary Public Ay —

My commission expires__@ | [3 ([2r _.

   

 
 

REG # 178586
MY COMMISSION

  

12
